Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





    MEDICARE DRUG PLAN 

 SPONSORS’ IDENTIFICATION OF 

 POTENTIAL FRAUD AND ABUSE





                    Daniel R. Levinson

                     Inspector General 


                      October 2008

                     OEI-03-07-00380

                 Office of Inspector General

                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E                                      S U M M A R Y


                  OBJECTIVES
                  To determine:

                  1. the extent to which Medicare stand-alone prescription drug plan
                     sponsors identified potential fraud and abuse;

                  2. the type of potential fraud and abuse that these plan sponsors
                     identified; and

                  3. the extent to which these plan sponsors conducted inquiries, initiated
                     corrective actions, and made referrals for further investigation
                     regarding potential fraud and abuse.


                  BACKGROUND
                  As of January 1, 2006, Medicare beneficiaries could obtain prescription
                  drug coverage under the Medicare Part D program. Part D
                  expenditures for 2007 were approximately $49.5 billion. As of August
                  2008, 26 million beneficiaries were enrolled in Part D and two-thirds
                  were in stand-alone drug plans.

                  Plan sponsors are private companies that contract with the Centers for
                  Medicare & Medicaid Services (CMS) to provide Part D drug coverage to
                  Medicare beneficiaries. Sponsors are required to have a comprehensive
                  program to detect and deter fraud and abuse. They can identify
                  potential fraud and abuse through internal efforts such as claim
                  reviews, and through complaints or referrals from external sources such
                  as CMS, Medicare Drug Integrity Contractors (MEDIC), law
                  enforcement agencies, beneficiaries, and pharmacy providers.

                  Upon identifying potential fraud and abuse, sponsors are required to
                  conduct an inquiry and initiate appropriate corrective action. CMS
                  recommends that sponsors refer potential fraud and abuse incidents to
                  MEDICs and/or law enforcement agencies.

                  The only type of fraud and abuse information CMS requires sponsors to
                  report to CMS is the aggregate number of fraud and abuse complaints
                  they received directly from beneficiaries each quarter.

                  We analyzed data representing the first 6 months of 2007 from
                  86 of 91 stand-alone drug plan sponsors. We did not include
                  5 of the 91 plan sponsors because 1 had been terminated from the
                  program, 1 was under investigation, and the other 3 did not provide
                  data in time to be included in our review.

OEI-03-07-00380   M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE   i
E X E C U T I V E                        S U            M M A R Y 




                   FINDINGS
                   Overall, 24 of 86 Part D stand-alone plan sponsors did not identify
                   any potential fraud and abuse incidents; most potential fraud and
                   abuse incidents were associated with only a small number of plan
                   sponsors. Twenty-four plan sponsors (28 percent) did not identify any
                   potential fraud and abuse incidents in the first 6 months of 2007 either
                   from internal efforts or complaints from external sources. Of the
                   62 plan sponsors that identified a total of 9,774 incidents of potential
                   fraud and abuse during this period, 7 plan sponsors accounted for
                   90 percent of all incidents. One of the seven plan sponsors identified
                   67 percent of all incidents.
                   Plan sponsors identified 78 percent of all potential fraud and abuse
                   incidents through internal efforts; however, 42 plan sponsors did not
                   identify any potential fraud and abuse through internal efforts. One
                   plan sponsor was associated with 84 percent of the potential fraud and
                   abuse identified through internal efforts.

                   Twenty-two percent of potential fraud and abuse incidents identified
                   came from external sources; however, 34 plan sponsors did not identify
                   any potential fraud and abuse incidents from external sources. Two
                   plan sponsors had the majority (51 percent) of these incidents.
                   Inappropriate billing was the most prevalent type of potential fraud
                   and abuse incident identified, and pharmacies were associated with
                   most of the potential fraud and abuse incidents. Plan sponsors
                   identified 26 different types of fraud and abuse (both from internal
                   efforts and complaints from external sources). Of the 26 types, the most
                   prevalent type was inappropriate billing, which accounted for 9,073
                   incidents. An example of inappropriate billing is submitting claims for
                   drugs not provided.

                   Plan sponsors identified 11 types of persons or entities associated with
                   potential fraud and abuse. Pharmacies/pharmacists were most often
                   associated with these incidents.
                   Not all 62 plan sponsors that identified potential fraud and abuse
                   incidents conducted inquiries, initiated corrective actions, or made
                   referrals for further investigation. Three actions that plan sponsors
                   can take after identifying potential fraud and abuse are conducting
                   inquiries, initiating corrective actions, and referring incidents for
                   further investigation. Of the 62 plan sponsors that identified incidents
                   of potential fraud and abuse, 47 conducted inquiries, 32 initiated

 OEI-03-07-00380   M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE   ii
E X E C U T I V E                        S U            M M A R Y


                   corrective actions, and 33 referred incidents to other entities for further
                   investigation. Overall, 17 plan sponsors initiated all three actions,
                   21 initiated two actions, 19 initiated one action, and 5 did not initiate
                   any of these actions.


                   RECOMMENDATIONS
                   Plan sponsors are the first line of defense against Part D fraud and
                   abuse. However, we found that some plan sponsors did not identify any
                   potential fraud and abuse incidents. Moreover, some of the plan
                   sponsors that identified potential fraud and abuse incidents did not
                   initiate inquiries, corrective actions, or referrals.
                   CMS does not routinely collect information that would describe the
                   overall volume or types of Part D fraud and abuse that occur or that
                   would inform CMS as to the effectiveness of the comprehensive fraud
                   and abuse plan each sponsor is required to have in place. The only
                   information that CMS requires plan sponsors to report to CMS
                   concerning fraud and abuse is the quarterly aggregate number of fraud
                   and abuse complaints that plan sponsors receive from beneficiaries.

                   A crucial aspect of protecting the integrity of the Part D program is
                   ensuring that the plan sponsors have a comprehensive and effective
                   program to detect and deter fraud and abuse. Therefore, we recommend
                   that CMS:
                   Review Part D plan sponsors to determine why certain sponsors
                   have identified especially high or low volumes of potential fraud and
                   abuse incidents.
                   Determine whether the Part D plan sponsors that identified potential
                   fraud and abuse initiated inquiries and corrective actions as
                   required by CMS, and made referrals for further investigation as
                   recommended by CMS.
                   Require Part D plan sponsors to maintain and routinely report
                   information related to the results of sponsors’ fraud and abuse
                   programs.
                   Use this required information to help determine the effectiveness of
                   sponsors’ fraud and abuse programs.




 OEI-03-07-00380   M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE   iii
E X E C U T I V E                        S U            M M A R Y 




                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS stated that it is committed to combating fraud, waste, and abuse
                   in the Part D program but that because of limited funding, it has not
                   been able to perform as much direct oversight of the Part D sponsors’
                   fraud, waste, and abuse efforts as expected.

                   In response to OIG’s first recommendation, CMS stated that it agreed
                   that the variability in the number of potential fraud and abuse incidents
                   identified by sponsors is a concern and that CMS will examine the data
                   more closely by referring the findings to MEDICs. CMS also stated that
                   it intends to revise the reporting requirements and give sponsors more
                   specific guidance on how to track and properly label incidents, e.g., as
                   an education issue or a potential fraud issue.

                   CMS concurred with OIG’s second recommendation and will refer the
                   data in this report to MEDICs for further investigation.

                   Although CMS provided comments about OIG’s third recommendation,
                   CMS did not state whether it concurred. CMS did state that OIG’s
                   report would be useful when CMS initiates its Part D sponsor
                   compliance plan audits. CMS stated that our report will help ensure
                   that sponsors are conducting their own internal investigations and
                   taking appropriate corrective actions. CMS did not address OIG’s
                   fourth recommendation.




 OEI-03-07-00380   M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE   iv
Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 8

                   Some plan sponsors did not identify any potential 

                   fraud and abuse . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8 


                   Inappropriate billing was most prevalent type of potential 

                   fraud and abuse . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 


                   Not all plan sponsors with potential fraud and abuse 

                   initiated inquiries, corrective actions, or referrals . . . . . . . . . . . . 11 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 

                   Agency Comments and Office of Inspector General Response . . . 15 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 

                   A:	 Selected Fraud and Abuse Activities for Stand-Alone 

                       Drug Plan Sponsors, First 6 Months of 2007 . . . . . . . . . . . . . . 17 


                   B: 	Types of Potential Fraud and Abuse Identified by 

                        Stand-Alone Drug Plan Sponsors, First 6 Months of 2007 . . 20 


                   C: 	Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27 

I N T R O D        U C T              I O N
Δ    I N T R O D U C T I O N


                    OBJECTIVES
                    To determine:

                    1. the extent to which Medicare stand-alone prescription drug plan
                       sponsors identified potential fraud and abuse;

                    2. the type of potential fraud and abuse that these plan sponsors
                        identified; and

                    3. the extent to which these plan sponsors conducted inquiries,
                       initiated corrective actions, and made referrals for further
                       investigation regarding potential fraud and abuse.


                    BACKGROUND
                    As of January 1, 2006, Medicare beneficiaries could obtain prescription
                    drug coverage under the Medicare Part D program (hereinafter
                    Part D). 1 Part D expenditures for 2007 were approximately
                    $49.5 billion. 2
                    Stand-Alone Drug Plan Coverage
                    Stand-alone drug plan coverage refers to a plan for prescription drugs
                    only. Beneficiaries who enroll in Part D have the option to receive their
                    drug coverage from a stand-alone drug plan sponsor or a managed-care
                    plan sponsor that covers other medical benefits in addition to
                    prescription drugs.

                    Two-thirds of the 26 million beneficiaries enrolled in Part D as of
                    August 2008 were enrolled in plans offered by stand-alone plan
                    sponsors. 3
                    Prescription Drug Plan Sponsors
                    Prescription drug plan sponsors (plan sponsors) are private companies
                    that provide Part D drug coverage to Medicare beneficiaries. The
                    Centers for Medicare & Medicaid Services (CMS) makes monthly
                    prospective payments to sponsors for each of the beneficiaries covered

                        1 The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 § 101;
                    P.L. No. 108-173 § 101; Social Security Act, § 1860D-1(a)(2); 42 U.S.C. § 1395w-101(a)(2).
                        2 The Boards of Trustees of the Federal Hospital Insurance and Federal Supplementary
                    Medical Insurance Trust Funds, “2008 Annual Report,” p. 111. Available online at
                    http://www.cms.hhs.gov/ReportsTrustFunds/downloads/tr2008.pdf. Accessed on
                    April 22, 2008.
                      3 CMS, “Monthly Contract and Enrollment Summary Report.” Available online at
                    http://www.cms.hhs.gov/MCRAdvPartDEnrolData/. Accessed on September 29, 2008.



 OEI-03-07-00380    M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE   1
I N T R O D        U C T              I O N


                    by the sponsors’ plans. The payments are based on estimates that
                    sponsors provide in their approved bids prior to the beginning of the
                    plan year. Sponsors’ bids are based on their actual costs from the base
                    year. After the close of the plan year, CMS must reconcile the payments
                    with the sponsors’ actual costs to determine whether sponsors owe
                    money to Medicare or Medicare owes money to sponsors based on
                    legislatively mandated risk-sharing percentages. 4 Thus, under Part D,
                    both Medicare and sponsors share the profits and losses of providing the
                    benefit.

                    CMS contracts with plan sponsors to provide drug plans in designated
                    regions. CMS established 39 stand-alone drug plan regions in 2007. Of
                    the 39 regions, 25 included one State each, 9 included multiple States,
                    and the remaining 5 included one U.S. territory each. Plan sponsors
                    may offer plans in one or more regions and may offer plans with
                    different features within each region. Plan sponsors may also offer
                    plans to employer/union groups.

                    Plan sponsors may use related entities and subcontractors to fulfill their
                    Part D contract. A related entity is a company that is related to the
                    plan sponsor by common ownership or control. The subcontractors of
                    plan sponsors may also subcontract. 5 For example, a plan sponsor
                    might subcontract with a pharmacy benefit manager (PBM), and the
                    PBM might subcontract with numerous pharmacies. Regardless of the
                    number of subcontractors and related entities involved per plan
                    sponsor, the plan sponsor is ultimately responsible for the Medicare
                    contract requirements and all data submitted to CMS. 6
                    Detecting and Deterring Fraud and Abuse
                    Plan sponsors are required to have a comprehensive program to detect
                    and deter fraud and abuse. 7 The specifics of the program are left to the
                    discretion of each plan sponsor. However, CMS provides fraud and
                    abuse program guidelines for plan sponsors in chapter 9 of its
                    “Prescription Drug Benefit Manual” (hereinafter CMS Manual).

                    Fraud and abuse reporting. CMS does not require plan sponsors to
                    report statistics about fraud and abuse detection and deterrence other

                        4 42 U.S.C. § 1395w-115e. 

                        5 CMS refers to the subcontractors as first tier and downstream entities. CMS, 

                    “Prescription Drug Benefit Manual,” v. 4-25-06, ch. 9, § 40.
                        6 42 CFR §§ 423.505(i) and 423.505(k).
                        7 42 CFR § 423.504(b)(4)(vi)(H).




 OEI-03-07-00380    M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE   2
I N T R O D        U C T              I O N


                    than the quarterly aggregate number of fraud and abuse complaints
                    that plan sponsors receive from beneficiaries. The requirement to
                    report complaints is based on a Federal regulation that requires plan
                    sponsors to keep track of enrollee grievances. 8 CMS uses the term
                    “grievance” for beneficiary complaints to sponsors to distinguish them
                    from beneficiary complaints that CMS receives from its complaint
                    lines. 9 We will use the term “complaints from beneficiaries” or
                    “beneficiary complaints” to refer to grievances in this report. Fraud and
                    abuse is one of 11 categories of beneficiary complaints that plan
                    sponsors report to CMS.

                    Plan sponsors must report to CMS the number of beneficiary complaints
                    they receive for each plan. CMS’s instructions state that because plan
                    sponsors must maintain certain information about the enrollee
                    regarding each complaint, plan sponsors should be able to report the
                    data by plan. 10
                    CMS defines fraud and abuse complaints as follows:

                    •	      A fraud complaint is an allegation that a person or an entity
                            (e.g., beneficiary, provider, or plan) engaged in an intentional
                            deception or misrepresentation that they know or believe to be
                            false and that they know could result in some unauthorized
                            benefits.

                    •	      An abuse complaint is an allegation that a person or an entity
                            (e.g., beneficiary, provider, or plan) engaged in behavior that they
                            should have known to be false and that could result in some
                            unauthorized benefits.

                    Internal and external sources of information about potential fraud and
                    abuse. Plan sponsors can identify potential fraud and abuse through
                    internal efforts, such as claim reviews and subcontractor audits. 11
                    Plan sponsors can also identify potential fraud and abuse through
                    complaints they receive from external sources. External sources include




                          8 42 CFR § 423.564(g).
                         9 CMS, “CY 2007 Part D Reporting Requirements: Frequently Asked Questions.” 

                         10 Ibid. 

                         11 CMS, “Prescription Drug Benefit Manual,” v. 4-25-06, ch. 9, §§ 50.2.6.1–50.2.6.3.





 OEI-03-07-00380    M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE   3
I N T R O D        U C T              I O N 





                    CMS, Medicare Drug Integrity Contractors (MEDIC), law enforcement
                    agencies, beneficiaries, and pharmacy providers.

                    In this report, when we use the phrase “complaints from external
                    sources,” we mean all fraud and abuse complaints or referrals made to
                    plan sponsors, including those from beneficiaries.

                    Inquiries into potential fraud and abuse. Plan sponsors are required to
                    conduct a timely, reasonable inquiry (i.e., preliminary investigation)
                    when evidence suggests potential fraud or abuse related to payment or
                    delivery of Part D prescription drug items or services. 12 CMS
                    recommends that the inquiry be initiated no later than 2 weeks from
                    the date the incident is identified. In the event that the plan sponsor
                    does not have time or resources to investigate the incident, CMS
                    recommends that plan sponsors refer the incident to a MEDIC within
                    2 weeks from the date the incident is identified. MEDICs will further
                    investigate referrals from plan sponsors and make referrals to law
                    enforcement agencies when necessary. 13 MEDICs are responsible for
                    assisting CMS with Part D audits, oversight, and antifraud and abuse
                    efforts.

                    Corrective actions. In response to potential fraud and abuse, plan
                    sponsors are required to carry out appropriate corrective actions
                    (e.g., repayment of overpayments and disciplinary action against
                    responsible individuals). 14
                    Referrals to Government entities for further investigation. CMS
                    recommends that after conducting inquiries, if plan sponsors identify
                    potential fraud or abuse, they should refer the incidents to a MEDIC for
                    further investigation. CMS recommends that the referral be made
                    within 2 months of determining that fraud or abuse may have
                    occurred. 15
                    CMS also recommends that plan sponsors voluntarily report potential
                    fraud or abuse discovered at the level of the plans, subcontractors, or
                    sponsor-related entities to law enforcement entities, such as the Office



                        12 42 CFR § 423.504(b)(4)(vi)(G)(1). 

                        13 CMS, “Prescription Drug Benefit Manual,” v. 4-25-06, ch. 9, § 50.2.8.3. 

                        14 42 CFR § 423.504(b)(4)(vi)(G)(2). 

                        15 CMS, “Prescription Drug Benefit Manual,” v. 4-25-06, ch. 9, § 50.2.8.2. 





 OEI-03-07-00380    M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE   4
I N T R O D        U C T              I O N


                    of Inspector General (OIG) (through OIG’s Provider Self-Disclosure
                    Protocol) or the Department of Justice. 16 17
                    Plan sponsors can also make referrals for further investigation to other
                    Government entities, including CMS, State agencies, and local law
                    enforcement agencies.
                    Related Study by the Office of Inspector General
                    In December 2006, OIG issued a report entitled “Prescription Drug Plan
                    Sponsors’ Compliance Plans” (OEI-03-06-00100). In this study, OIG
                    found that of 79 compliance plans for stand-alone drug plan sponsors:

                            •	      14 did not indicate that the sponsors had any procedures in
                                    place to identify fraud and abuse;

                            •	      19 did not indicate that the sponsors had procedures to
                                    voluntarily report fraud or misconduct to Government entities,
                                    such as OIG or the Department of Justice;

                            •	      43 did not describe procedures for responding to compliance
                                    violations; and

                            •	      54 did not provide detailed descriptions of the types of corrective
                                    actions sponsors undertake in response to compliance violations.


                    METHODOLOGY
                    Scope
                    We reviewed Medicare Part D stand-alone drug plan sponsors’ fraud
                    and abuse information for the first 6 months of 2007. During this
                    period, there were 91 such plan sponsors across the country and in U.S.
                    territories. However, our study includes 86 plan sponsors with a total of
                    2,039 plans. 18 We did not include five plan sponsors because one had


                        16 Ibid. In December 2007, CMS issued a final rule retaining plan sponsors’ voluntary
                    self-reporting of potential fraud or misconduct. However, in the publication of the rule,
                    CMS stated that it is committed to adopting mandatory self-reporting and was seeking
                    additional comments to craft a mandatory provision. 72 Fed. Reg. 68700, 68707
                    (Dec. 5, 2007).
                      17 OIG’s Provider Self-Disclosure Protocol offers providers a method of coming forward to
                    work openly and cooperatively with OIG to quantify a particular problem and ultimately to
                    promote a higher level of ethical and lawful conduct throughout the health care industry.
                    63 Fed. Reg. 58399 (Oct. 30, 1998).
                        18 We did not include employer/union groups that contract directly with CMS in this
                    study. However, some plan sponsors in our study provided national or regional plans to
                    employer/union groups. These plans are included in our study.



 OEI-03-07-00380    M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE   5
I N T R O D        U C T              I O N


                    been terminated from the program, one was under investigation, and
                    three did not respond to our data request in time to be included in our
                    review.

                    Of the 2,039 plans in our review, 1,332 were also offered to beneficiaries
                    in 2006. For these 1,332 plans, we also collected data for the last
                    6 months of 2006.
                    Data Collection
                    Plan sponsors. We sent a data request to each plan sponsor that was on
                    file in CMS’s Health Plan Management System as of October 2007. We
                    requested that the plan sponsors send us data regarding each of their
                    plans.

                    Thirteen plan sponsors in our study did not provide data by plan as we
                    requested. These plan sponsors stated that they do not track their data
                    at that level. Eight of these plan sponsors provided their data
                    aggregated to the plan sponsor level. The other five plan sponsors
                    provided data for each State and/or U.S. territory where their plans
                    were offered.

                    For the first 6 months of 2007 and, if applicable, the last 6 months of
                    2006, we asked each plan sponsor to provide the number of potential
                    fraud and abuse incidents identified through internal efforts and the
                    number of complaints received from external sources as defined by
                    CMS. These external sources include CMS, MEDICs, law enforcement
                    agencies, beneficiaries, and others. We also asked for the number and
                    types of fraud and abuse identified, the number and types of persons or
                    entities associated with the fraud and abuse incidents identified, the
                    number of inquiries conducted, the number and types of corrective
                    actions initiated as a result of the fraud and abuse identified, and the
                    number of referrals for further investigation made to Government
                    entities.
                    Centers for Medicare & Medicaid Services. We collected information
                    about the plan sponsors from CMS’s Part D enrollment files and Health
                    Plan Management System. We collected the number of plans offered,
                    regions covered, and beneficiaries enrolled.
                    Analysis
                    For all plan sponsors in our study, we summarized responses for each
                    question in our data request at the plan sponsor level. For the 73 plan
                    sponsors that provided data by plan, we also summarized responses for
                    each question at the plan level. We summarized data by State and U.S.


 OEI-03-07-00380    M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE   6
I N T R O D        U C T              I O N


                    territory for respondents that provided the data by those variables. We
                    identified the mean, median, maximum, and minimum for each
                    question.

                    We also compared plan sponsors’ responses based on the number of
                    plans offered, regions covered, and beneficiaries enrolled.

                    For plan sponsors that provided data for the last 6 months of 2006, we
                    compared those data with data from the first 6 months of 2007.
                    However, we did not include the 2006 information in this report because
                    it was not significantly different from the 2007 data.

                    We assigned an identification number to the plan sponsors in our review
                    based on the number of potential fraud and abuse incidents they
                    identified through internal efforts. We use these identification numbers
                    in all of our report tables so that the reader can identify information
                    related to the same plan sponsor across the different tables.

                    Our findings that plan sponsors identified or did not identify potential
                    fraud and abuse incidents are based on the numeric data that plan
                    sponsors provided.
                    Limitations
                    We did not independently verify the information plan sponsors provided
                    to us or to CMS’s Health Plan Management System.

                    We use the term “incident” (i.e., potential fraud and abuse incident) to
                    represent an instance of misconduct or a violation, not the number of
                    providers involved in the misconduct or violation. However, in our
                    analysis of plan sponsor responses, we saw that the numbers plan
                    sponsors provided for certain questions about fraud and abuse volume
                    did not always match. One example was a plan sponsor that reported
                    identifying a total of 92 incidents of potential fraud and abuse from
                    internal and external sources but conducted only 46 inquiries. Another
                    example was a plan sponsor that reported identifying a total of 66
                    incidents of potential fraud and abuse but initiated 171 corrective
                    actions. We did not determine why this information did not match.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-03-07-00380    M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE   7
 Δ        F I N D I N G S


     Overall, 24 of 86 Part D stand-alone plan              Twenty-four plan sponsors
 sponsors did not identify any potential fraud              (28 percent) did not identify any
and abuse incidents; most potential fraud and               incidents of potential fraud and
                                                            abuse, either from internal efforts or
  abuse incidents were associated with only a
                                                            complaints from external sources, in
               small number of plan sponsors
                                                            the first 6 months of 2007.
                                                            Sixty-two plan sponsors (72 percent)
                     identified a total of 9,774 potential fraud and abuse incidents in this
                     time period. Of these 62 plan sponsors, the number of incidents per
                     plan sponsor ranged from 1 to 6,533, with a median of 11. Plan
                     sponsors are not required to report to CMS the number of fraud and
                     abuse incidents they identify, only the number of beneficiary complaints
                     they receive.
                     Most of these potential fraud and abuse incidents were associated with
                     seven plan sponsors. As shown in Table 1, these seven plan sponsors
                     represent 90 percent of the total number of potential fraud and abuse
                     incidents (8,817 of 9,774). One of these seven plan sponsors identified
                     67 percent of the incidents. Although these seven plan sponsors
                     identified most of the potential fraud and abuse incidents, only two of
                     the seven are among the top seven plan sponsors with the largest
                     beneficiary enrollment. Appendix A provides the number of potential
                     fraud and abuse incidents identified and other information for 86 plan
                     sponsors.


                        Table 1. Top Seven Plan Sponsors That Identified the Most
                        Potential Fraud and Abuse Incidents, First 6 Months of 2007

                                                      Number of                     Percentage of All
                        Plan                      Potential Fraud                    Potential Fraud                                     Number of
                        Sponsor                       and Abuse                           and Abuse                    Number of           Regions
                        ID                             Incidents                           Incidents1               Plans Offered         Covered2
                        1                                   6,533                                67%                          104               34
                        33                                    860                                 9%                          104               34
                        2                                     636                                 7%                          107               35
                        14                                    258                                 3%                          104               34
                        3                                     242                                 2%                            2                1
                        10                                    166                                 2%                           41               34
                        5                                     122                                 1%                          101               33
                           Total                            8,817                                90%
                     Sources: CMS’s Health Plan Management System data and OIG analysis of plan sponsor responses. 

                     1 Percentages are affected by rounding.

                     2 National employer/union group plans are not included in this column. 




   OEI-03-07-00380   M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE               8
F I   N D I         N G S


                       Plan sponsors identified 78 percent of all potential fraud and abuse
                       incidents through internal efforts; however, 42 plan sponsors did not
                       identify any potential fraud and abuse through internal efforts
                       Of the 9,774 incidents of potential fraud and abuse, 7,595 incidents
                       (78 percent) were identified through internal efforts. An example of an
                       internal effort is claim reviews. Forty-four plan sponsors (51 percent)
                       identified potential fraud and abuse from internal efforts; 42 plan
                       sponsors (49 percent) did not identify any potential fraud and abuse
                       from internal efforts.

                       One plan sponsor was associated with 84 percent of the potential fraud and
                       abuse incidents identified through internal efforts. As shown in Table 2,
                       one plan sponsor was responsible for 84 percent of the potential fraud
                       and abuse incidents identified through internal efforts (6,410 of
                       7,595 incidents). Table 2 also shows that this plan sponsor, along with
                       two additional plan sponsors, made up 95 percent of the potential fraud
                       and abuse incidents identified from internal efforts. Appendix A
                       provides data on all plan sponsors’ internal efforts.


                         Table 2. Top Three Plan Sponsors With the Most Potential Fraud and
                         Abuse Incidents Identified Through Internal Efforts, First 6 Months of
                         2007

                                                                           Number of Incidents Plan                          Percentage of All Incidents
                                                                        Sponsors Identified Through                            Plan Sponsors Identified
                         Plan Sponsor ID                                            Internal Efforts                           Through Internal Efforts
                         1                                                                     6,410                                               84%
                         2                                                                       592                                                 8%
                         3                                                                       242                                                 3%
                            Total                                                              7,244                                               95%
                       Source: OIG analysis of plan sponsor responses.


                       Twenty-two percent of potential fraud and abuse incidents identified came
                       from external sources; however, 34 plan sponsors did not identify any
                       potential fraud and abuse incidents from external sources
                       Of the 9,774 incidents of potential fraud and abuse identified by plan
                       sponsors, 2,179 (22 percent) were complaints from external sources.
                       Fifty-two plan sponsors (60 percent) had fraud and abuse complaints
                       from external sources; 34 plan sponsors (40 percent) had no complaints
                       from external sources. Of the 2,179 complaints from external sources,
                       80 were from law enforcement agencies, 936 were from CMS and
                       MEDICs, and 1,163 were from beneficiaries and other sources such as
                       pharmacy providers.

  OEI-03-07-00380      M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE             9
F   I N D I N G         S


                      Two plan sponsors were associated with 51 percent of these incidents.
                      Two plan sponsors had the majority (51 percent) of the complaints from
                      external sources. Appendix A provides the number of potential fraud
                      and abuse incidents identified through external sources for all 86 plan
                      sponsors.



  Inappropriate billing was the most prevalent             Plan sponsors identified
     type of potential fraud and abuse incident            26 different types of fraud and
  identified; pharmacies were associated with              abuse (both from internal efforts
                                                           and complaints from external
most of the potential fraud and abuse incidents
                                                           sources). Plan sponsors are not
                      required to report to CMS the types of potential fraud and abuse they
                      identify.
                      Of the 26 types of potential fraud and abuse, the most prevalent type
                      was inappropriate billing, with 9,073 incidents. An example of
                      inappropriate billing is submitting claims for drugs not provided.

                      The second most prevalent type of potential fraud and abuse identified
                      by plan sponsors was providing false information, with 520 incidents.
                      An example of providing false information is misrepresentation of a
                      beneficiary’s personal identity, eligibility, medical condition, or plan
                      enrollment.

                      The third most prevalent type of potential fraud and abuse identified by
                      plan sponsors was doctor shopping, with 400 incidents. “Doctor
                      shopping” is the term used for consulting a number of doctors for the
                      purpose of inappropriately obtaining multiple prescriptions for drugs.

                      Plan sponsors identified fewer than 152 incidents of each of the other
                      23 types of potential fraud and abuse. Appendix B provides the number
                      and types of potential fraud and abuse reported by plan sponsors.

                      Plan sponsors reported that pharmacies/pharmacists were the entities
                      most often associated with potential fraud and abuse incidents. Plan
                      sponsors reported that pharmacies/pharmacists were associated with
                      9,852 incidents (92 percent). 19 Plan sponsors reported that beneficiaries

                         19 The number 9,852 is higher than the 9,774 potential fraud and abuse incidents that
                      plan sponsors identified. One possible explanation is that more than one person or entity
                      was identified for each incident of potential fraud and abuse.




    OEI-03-07-00380   M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE   10
  F   I N D I N G         S


                        were associated with 591 incidents and sales or marketing brokers were
                        associated with 124 incidents. Plan sponsors themselves were also
                        listed as entities associated with potential fraud and abuse during this
                        period. Table 3 shows the persons or entities plan sponsors reported as
                        associated with potential fraud and abuse.



                          Table 3. Persons or Entities Associated With Potential Fraud and
                          Abuse Incidents, First 6 Months of 2007

                          Person or Entity                                                                                          Number of Incidents
                          Pharmacy/pharmacist                                                                                                     9,852
                          Beneficiary                                                                                                               591
                          Sales or marketing broker                                                                                                 124
                          Third party                                                                                                                82
                          Physician or other prescriber                                                                                              56
                          Plan sponsor                                                                                                               44
                          PBM                                                                                                                         6
                          Family member                                                                                                               5
                          Insurance agency/agent                                                                                                      3
                          Claims adjudicator                                                                                                          2
                          Drug manufacturer                                                                                                           1
                             Total                                                                                                              10,7661
                        Source: OIG analysis of plan sponsor responses.
                         1 The number 10,766 is higher than the total number of potential fraud and abuse incidents that plan

                        sponsors identified and higher than the aggregated number of different types of fraud and abuse they
                        reported. One possible explanation is that more than one person or entity was identified for each incident
                        of potential fraud and abuse.


 Not all 62 plan sponsors that identified potential           Three actions that plan sponsors
  fraud and abuse incidents conducted inquiries,              can take after identifying
                                                              potential fraud and abuse are
initiated corrective actions, or made referrals for
                                                              conducting inquiries, initiating
                              further investigation
                                                              corrective actions, and referring
                                                              incidents for further investigation.
                        Plan sponsors are not required to report to CMS any data concerning
                        the actions they take in response to potential fraud and abuse.
                        Of the 62 plan sponsors that identified potential fraud and abuse,
                        47 conducted inquiries, 32 initiated corrective actions, and 33 referred
                        incidents to other entities for further investigation. Overall, 17 plan
                        sponsors initiated all three actions, 21 initiated two actions, 19 initiated
                        one action, and 5 did not initiate any of these actions. Appendix A
                        provides inquiry, corrective action, and referral information for all plan
                        sponsors.


      OEI-03-07-00380   M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE             11
F   I N D I N G         S


                      Inquiries. Of the 62 plan sponsors that identified potential fraud and
                      abuse, 47 conducted 1,904 inquiries during the review period. 20 Of
                      these 1,904, one plan sponsor conducted 849 inquiries, or 45 percent.
                      The top four plan sponsors conducted 72 percent of all these inquiries.

                      CMS recommends that plan sponsors refer fraud and abuse incidents to
                      MEDICs when they do not have the time or resources to conduct
                      inquiries. Of 15 plan sponsors that identified potential fraud and abuse
                      incidents but did not conduct inquiries, none sent any incidents to
                      MEDICs because of time or resource constraints.

                      Corrective actions. Of the 62 plan sponsors that identified potential
                      fraud and abuse, 32 initiated 9,011 corrective actions. 21 The most
                      frequent type of corrective action was repayment of overpayments, with
                      8,318 actions taken. One plan sponsor that initiated 71 percent of the
                      corrective actions (6,410 of 9,011) used repayments to address
                      98 percent of its potential fraud and abuse incidents. The second most
                      frequent type of corrective action initiated was termination from the
                      network, with 476 actions taken. Table 4, on the next page, shows the
                      number and types of corrective actions plan sponsors initiated and the
                      number of sponsors that initiated each type.

                      Three plan sponsors initiated a significantly higher number of
                      corrective actions compared to the total number of potential fraud and
                      abuse incidents they identified. These three plan sponsors initiated
                      795, 479, and 171 corrective actions, respectively, although they
                      identified only 70, 2, and 66 potential fraud and abuse incidents.




                          20 One plan sponsor that had not identified any potential fraud and abuse during this
                      period reported conducting one inquiry. Therefore, the total number of inquiries plan
                      sponsors conducted during this time period is 1,905.
                          21 Two plan sponsors that had not identified any potential fraud and abuse during this
                      period each reported initiating one corrective action. Therefore, the total number of
                      corrective actions that plan sponsors initiated during this time period is 9,013.



    OEI-03-07-00380   M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE   12
F   I N D I N G             S           



                  Table 4. Corrective Actions Initiated by Plan Sponsors, First 6 Months of 2007
                                                                                          Number of Plan
                                                                  Number of Times          Sponsors That
                   Type of Correction Action                     Type Was Initiated Initiated Each Type1
                   Repayment of erroneous payment or overpayment             8,318                   20
                   Termination from network                                    476                   14
                   Disciplinary action                                         158                     8
                   Correction of data                                            16                    4
                   Utilization monitoring                                         8                    1
                   Premium or true out-of-pocket cost adjustment                  6                    1
                   Reverse processing of erroneous prescriptions                  6                    1
                   Oversight                                                      2                    1
                   Unidentified                                                  21                    4
                       Total                                                 9,011
                  Source: OIG analysis of plan sponsor responses.

                  1Column cannot be totaled because some plan sponsors are represented in more than one row. 





                          Referrals. Of the 62 plan sponsors that identified potential fraud and 

                          abuse incidents, 33 made at least 1 referral for further investigation, for 

                          a total of 1,701 referrals. 22 The referrals were made to CMS, 

                          Department of Justice agencies, local law enforcement agencies, 

                          MEDICs, OIG, State agencies, and other plan sponsors.

                          Eighty-nine percent of these referrals went to MEDICs (1,522 of 1,701). 

                          Two plan sponsors made 89 percent of the referrals to MEDICs 

                          (1,347 of 1,522). 





                              22 One plan sponsor that reported not identifying any potential fraud and abuse during
                          this period also reported referring three incidents of potential fraud and abuse for further
                          investigation. Therefore, the total number of referrals for further investigation during this
                          time period is 1,704.



    OEI-03-07-00380       M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE   13
Δ         R E C O M M E N D A T I O N S



                  Plan sponsors are the first line of defense against Part D fraud and
                  abuse. They are required to have a comprehensive program to detect
                  and deter Part D fraud and abuse. However, we found that some of
                  these plan sponsors did not identify any potential fraud and abuse
                  incidents; most incidents were identified by a small number of plan
                  sponsors; and not all plan sponsors that identified potential fraud and
                  abuse conducted inquiries, initiated corrective actions, or made referrals
                  for further investigation.

                  CMS does not routinely collect information that would describe the
                  overall volume or types of Part D fraud and abuse that occur or other
                  outcome-related information that would inform CMS as to the
                  effectiveness of the comprehensive fraud and abuse plan each sponsor is
                  required to have in place. The only information concerning fraud and
                  abuse that CMS requires to be reported is the quarterly aggregate
                  number of fraud and abuse complaints that plan sponsors received from
                  beneficiaries. There is no required reporting to CMS of information
                  relating to self-identified instances of fraud or allegations received from
                  sources other than beneficiaries. Further, the data CMS collects about
                  beneficiary complaints to plan sponsors do not provide information
                  about whether, or how effectively, the plan sponsors addressed the
                  allegations.

                  A crucial aspect of protecting the integrity of the Part D program is
                  ensuring that the plan sponsors have in place a comprehensive and
                  effective program to detect and deter fraud and abuse. Therefore, we
                  recommend that CMS:
                  Review Part D plan sponsors to determine why certain sponsors have
                  identified especially high or low volumes of potential fraud and abuse
                  incidents.

                  Determine whether the Part D plan sponsors that identified potential fraud
                  and abuse initiated inquiries and corrective actions as required by CMS, and
                  made referrals for further investigation as recommended by CMS.

                  Require Part D plan sponsors to maintain and routinely report information
                  related to the results of sponsors’ fraud and abuse programs.
                  Such information should include, but not be limited to, the number and
                  types of potential fraud and abuse incidents identified through internal
                  efforts and external sources, the number of inquiries conducted into
                  potential fraud and abuse, the number and types of corrective actions

OEI-03-07-00380   M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE   14
R   E C O        M M E N D A T                           I O N               S


                      initiated, the number of referrals for further investigation, and the
                      types of agencies to which referrals were sent. Moreover, all categories
                      of required information should be clearly defined to prevent
                      misinterpretation and to ensure that information from different sources
                      can be compared.
                      Use this required information to help determine the effectiveness of
                      sponsors’ fraud and abuse programs.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS stated that it is committed to combating fraud, waste, and abuse
                      in the Part D program but that because of limited funding, it has not
                      been able to perform as much direct oversight of the Part D sponsors’
                      fraud, waste, and abuse efforts as it anticipated.

                      CMS questioned the validity of our report numbers and stated that
                      incidents might include beneficiary misunderstandings, a sponsor’s
                      noncompliance, and incidents of potential fraud.

                      The data that we requested from sponsors were specifically about
                      potential fraud and abuse incidents. We asked sponsors to provide us
                      the number of potential fraud and abuse incidents that they identified
                      through internal efforts and the number of potential fraud and abuse
                      incidents that they identified through external sources (e.g., law
                      enforcement agencies, MEDICs, providers, and beneficiaries). We used
                      terms from two CMS sources: (1) the “Prescription Drug Benefit
                      Manual,” chapter 9, which provides guidance on fraud and abuse
                      programs; and (2) the CMS instructions to sponsors for reporting
                      beneficiary complaint numbers. We agree that potential fraud and
                      abuse incidents should be further defined by CMS to ensure
                      comparability of data across sponsors and this is included in our third
                      recommendation.

                      In response to OIG’s first recommendation, CMS stated that it agreed
                      that the variability in the number of potential fraud and abuse incidents
                      identified by sponsors is a concern. CMS will examine the data more
                      closely by referring the findings to MEDICs for further investigation.
                      CMS also stated that it intends to revise the reporting requirements to
                      enhance the data collected and give sponsors more specific guidance on
                      how to track and properly label incidents, e.g., as an education issue or
                      a potential fraud issue.


    OEI-03-07-00380   M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE   15
R   E C O        M M E N D A T                           I O N                S


                      CMS concurred with OIG’s second recommendation and will refer the
                      data in this report to MEDICs for further investigation.

                      Although CMS provided comments about OIG’s third recommendation,
                      CMS did not state whether it concurred. CMS did state that OIG’s
                      report would be useful when CMS initiates its Part D sponsor
                      compliance plan audits. CMS stated that our report will help ensure
                      that sponsors are conducting their own internal investigations and
                      taking appropriate corrective actions. CMS did not address OIG’s
                      fourth recommendation.

                      CMS provided technical comments. CMS stated that the number of
                      complaint categories in the Complaint Tracking Module should be
                      10 and not 11 as stated on page 3 of the report. We did not change the
                      number of complaint categories because there is an 11th category in the
                      Complaint Tracking Module (“Other”).

                      CMS stated that our methodology would be improved by including
                      information about enrollments. However, during a meeting with CMS
                      about our findings, prior to the issuance of our draft report, CMS staff
                      requested that OIG remove enrollment information from the tables in
                      the report because they believed that readers could use it to identify
                      sponsors. OIG has provided CMS with a crosswalk to identify sponsors
                      in our report tables for further analysis or followup.

                      We ask that, in its final management decision, CMS more clearly
                      indicate whether it concurs with our third and fourth recommendations
                      and what steps, if any, it will take to implement them. The full text of
                      CMS’s comments is provided in Appendix C.




    OEI-03-07-00380   M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE   16
Δ          A P P E N D I X ~ A




The table below provides information about the 86 Part D stand-alone drug plan sponsors
reviewed in this report. The information is sorted by the number of potential fraud and abuse
incidents plan sponsors identified through internal efforts.



Selected Fraud and Abuse Activities for Stand-Alone Drug Plan Sponsors, First 6 Months of 2007
                                             Number of                Number of
                                               Potential                Potential
                                             Fraud and                Fraud and                       Total
                                                 Abuse                    Abuse                  Number of
                                              Incidents                Incidents                   Potential                                               Number of
                                              Identified               Identified                Fraud and                               Number of        Referrals to
Plan          Number        Number of          Through                  Through                      Abuse               Number of       Corrective    Other Entities
Sponsor       of Plans        Regions           Internal                External                  Incidents                Inquiries        Actions        for Further
ID             Offered       Covered1            Efforts               Sources2                   Identified             Conducted         Initiated    Investigation
1                  104             34              6,410                     123                      6,533                        0           6,410                 0
2                  107             35                592                       44                       636                       30             565                 6
3                    2              1                242                        0                       242                     242              154                 0
4                    2              1                 37                        3                         40                       0              20                 0
5                  101             33                 33                       89                       122                     122               10                16
6                  107             31                 30                       62                         92                      46               0                46
7                    4              1                 27                        0                         27                       0              27                 0
8                   85             38                 22                       44                         66                      51             171                18
9                  104             34                 21                       49                         70                      65             795               827
10                  41             34                 20                     146                        166                     166                0                 0
11                   5              1                 15                        3                         18                      17               0                 2
12                   2              1                 13                        0                         13                       5               0                 8
13                  56             33                 12                       27                         39                      20               0                 0
14                 104             34                  9                     249                        258                       18              14                38
15                   5              1                  9                        2                         11                      11               0                 2
16                   2              1                  9                        1                         10                      10               7                 4
17                  70             34                  8                       24                         32                       0               8                11
18                  69             21                  8                       17                         25                      10               0                 0
19                  17              1                  7                        9                         16                       8               0                 8
20                   4              1                  7                        1                          8                       8               0                 0
21                   5              1                  6                        0                          6                       6               0                 8
22                   5              1                  5                       10                         15                      14               1                 6
23                 110             36                  4                       88                         92                      19               0                 4
24                  68             33                  4                       73                         77                       2               0                 6
25                  92             34                  4                       13                         17                      17              17                 0
26                   3              1                  4                        3                          7                       7              10                 0
27                   1              1                  4                        0                          4                       4               0                 3
28                   4              1                  4                        0                          4                       4               0                 4
29                  15              3                  3                       16                         19                      19              11                 6




          OEI-03-07-00380         M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE              17
  A   P   P E N D       I X ~             A            





Selected Fraud and Abuse Activities for Stand-Alone Drug Plan Sponsors, First 6 Months of 2007
(continued)
                                                Number of                Number of                   Total
                                                  Potential                Potential              Number
                                                Fraud and                Fraud and                      of
                                                    Abuse                    Abuse               Potential
                                                 Incidents                Incidents                 Fraud                                                 Number of
                                                 Identified               Identified                  and                               Number of        Referrals to
Plan        Number of   Number of                 Through                  Through                 Abuse           Number of            Corrective    Other Entities
Sponsor        Plans      Regions                  Internal                External             Incidents            Inquiries             Actions        for Further
ID            Offered    Covered1                   Efforts               Sources2              Identified         Conducted              Initiated    Investigation
30                 42          12                         3                       10                    13                   5                    0                 0
31                  4           2                         3                        5                     8                   0                    0                 0
32                  2           1                         3                        3                     6                   0                    0                 1
33                104          34                         2                     858                   860                 849                   209               624
34                  2           1                         2                       10                    12                  12                    2                 8
35                  6           1                         2                        5                     7                   6                    6                 3
36                  3           1                         2                        0                     2                   0                  479                 0
37                  2           1                         2                        0                     2                   2                    2                 0
38                 68          34                         1                       59                    60                   0                   57                 3
39                  3           1                         1                       11                    12                  12                    1                23
40                104          34                         1                        5                     6                   5                    1                 3
41                 67          33                         1                        4                     5                   3                    3                 3
42                  5           1                         1                        3                     4                   4                    1                 1
43                  5           1                         1                        0                     1                   0                    2                 1
44                  3           1                         1                        0                     1                   1                    0                 0
45                  4           1                         0                       34                    34                  32                    0                 3
46                 14           7                         0                       14                    14                  14                    0                 0
47                  9           1                         0                       13                    13                   1                   13                 0
48                  3           1                         0                       10                    10                  10                    8                 0
49                  4           1                         0                        7                     7                   7                    0                 0
50                  4           1                         0                        4                     4                   0                    0                 0
51                  2           1                         0                        4                     4                   3                    0                 0
52                  4           1                         0                        4                     4                   4                    0                 0
53                 56          24                         0                        3                     3                   3                    1                 0
54                  6           2                         0                        3                     3                   3                    3                 2
55                  3           1                         0                        3                     3                   3                    0                 0
56                  4           1                         0                        2                     2                   2                    2                 2
57                  2           1                         0                        2                     2                   2                    0                 0
58                  2           1                         0                        2                     2                   0                    0                 0
59                  4           1                         0                        2                     2                   0                    0                 0
60                  4           1                         0                        1                     1                   0                    1                 0
61                  4           1                         0                        1                     1                   0                    0                 1
62                  1           1                         0                        1                     1                   0                    0                 0
63                 33          10                         0                        0                     0                   0                    0                 0
64                 36          34                         0                        0                     0                   0                    0                 0




      OEI-03-07-00380    M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE                18
      A    P   P E N D            I X ~             A            





Selected Fraud and Abuse Activities for Stand-Alone Drug Plan Sponsors, First 6 Months of
2007 (continued)
                                                Number of              Number of                   Total
                                                  Potential              Potential              Number
                                                Fraud and              Fraud and                      of
                                                    Abuse                  Abuse               Potential
                                                 Incidents              Incidents                 Fraud                                                    Number of
                                                 Identified             Identified                  and                            Number of              Referrals to
Plan           Number of      Number of           Through                Through                 Abuse             Number of       Corrective          Other Entities
Sponsor           Plans         Regions            Internal              External             Incidents              Inquiries        Actions              for Further
ID               Offered       Covered1             Efforts             Sources2              Identified           Conducted         Initiated          Investigation
65                     3              1                   0                      0                     0                     0               0                       0
66                     4              1                   0                      0                     0                     0               0                       0
67                     4              1                   0                      0                     0                     0               0                       0
68                     5              1                   0                      0                     0                     0               0                       0
69                     5              1                   0                      0                     0                     0               0                       0
70                    37             35                   0                      0                     0                     0               0                       0
71                     4              1                   0                      0                     0                     1               1                       3
72                     6              3                   0                      0                     0                     0               0                       0
73                     4              1                   0                      0                     0                     0               0                       0
74                     9              1                   0                      0                     0                     0               0                       0
75                    10              5                   0                      0                     0                     0               0                       0
76                     2              1                   0                      0                     0                     0               0                       0
77                     4              1                   0                      0                     0                     0               0                       0
78                     2              1                   0                      0                     0                     0               1                       0
79                     4              1                   0                      0                     0                     0               0                       0
80                     4              1                   0                      0                     0                     0               0                       0
81                     3              1                   0                      0                     0                     0               0                       0
82                     2              1                   0                      0                     0                     0               0                       0
83                     3              1                   0                      0                     0                     0               0                       0
84                     4              1                   0                      0                     0                     0               0                       0
85                     4              1                   0                      0                     0                     0               0                       0
86                     3              1                   0                      0                     0                     0               0                       0
   Total           2,039                              7,595                 2,179                 9,774                 1,905            9,013                   1,704
Sources: Centers for Medicare & Medicaid Services’ Health Plan Management System data, and Office of Inspector General analysis of
plan sponsor responses.
1 There are 39 stand-alone drug plan regions. Of the 39, 25 include only one State, 9 include multiple States, and 5 include one

U.S. territory each. The national employer/union group plans in our review are not included in the count of regions for this column.
2 This column includes complaints that plan sponsors received from CMS, Medicare Drug Integrity Contractors, law enforcement

agencies, beneficiaries, and others.




           OEI-03-07-00380         M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE                     19
 Δ          A P P E N D I X ~ B



Examples in this table came from the Centers for Medicare & Medicaid Services (CMS),
“Prescription Drug Benefit Manual,” chapter 9, sections 70.1 through 70.1.7; Medicare Drug
Integrity Contractors’ internal categories for complaints; and plan sponsor responses to our
review questions.



 Types of Potential Fraud and Abuse Identified by Stand-Alone Drug Plan Sponsors, First 6 Months of 2007


 Type of Fraud       Number of
 and Abuse           Incidents                                                                                Examples
                                                    •       Billing for drugs or services not provided.
                                                    •       Billing multiple payers for the same prescriptions, except as required
 Inappropriate                                              for coordination of benefit transactions.
                         9,073
 Billing                                            •       Billing based on group visits, e.g., a pharmacist visits a nursing home
                                                            and bills for numerous prescriptions without furnishing any specific
                                                            service to individual patients.


                                                    •       Plan sponsor or subcontractor falsified information furnished to CMS.
                                                    •       Prescriber falsified information submitted through a prior authorization
 Providing False
                         520                                or other formulary oversight mechanism in order to justify coverage.
 Information
                                                    •       Misrepresentation of beneficiary's personal identity or eligibility
                                                            information, medical condition, or plan enrollment information.


                                                    •       Beneficiary consulted a number of doctors for the purpose of
 Doctor
                         400                                inappropriately obtaining multiple prescriptions for narcotic painkillers
 Shopping
                                                            or other drugs.

 Attempting To                                      •       Beneficiary was asked for credit card or banking information.
 Steal                                              •       Beneficiary was asked for payment over the telephone or Web.
                         151
 Beneficiary                                        •       Individual or organization posed as Medicare or Social Security with
 Identity/Money                                             intent to steal beneficiary's identity or money.

 Engaging in
                                                    •       Plan sponsor or subcontractor violated Medicare marketing guidelines
 Improper
                         139                                or other Federal or State laws, rules, and regulations to improperly
 Marketing
                                                            enroll beneficiaries in a Part D plan.
 Schemes
                                                    •       Overcharging beneficiary for coinsurance or premium.
                                                    •       Pharmacy asked beneficiary to pay uncompensated amounts.
 Overcharging
                          58                        •       Bait and switch pricing, i.e., beneficiary is led to believe a drug will
 Beneficiary                                                cost one price, but at point of sale beneficiary is charged a higher
                                                            amount.




       OEI-03-07-00380         M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE   20
A   P     P E N D           I X              ~           B            





Types of Potential Fraud and Abuse Identified by Stand-Alone Drug Plan Sponsors, First 6 Months of 2007 (continued)

Type of Fraud             Number of
and Abuse                 Incidents                                                                                  Examples

                                                        •       Dispensed expired or adulterated prescription drugs.
Inappropriate
                                                        •       Dispensed drugs without a prescription.
Prescription                 50
Dispensing                                              •       Pharmacist or pharmacy benefit manager’s (PBM) mail order pharmacy
                                                                split prescription to receive additional dispensing fee.

                                                        •       Beneficiary obtained prescription drugs from a provider and gave or sold
                                                                this medication to someone else.
Diverting
                             33                         •       Inappropriate consumption or distribution of a beneficiary's medications
Prescriptions
                                                                by a caregiver or anyone else.
                                                        •       Beneficiary resale of drugs on black market.

                                                        •       Submitted inaccurate or incomplete prescription drug event data or Part D
Providing Data                                                  plan quarterly data.
That Lacks                   27                         •       Improperly reported enrollment/disenrollment data to CMS to inflate
Integrity to CMS                                                prospective payments.
                                                        •       Inappropriately documented pricing information.

                                                        •       Prescriptions were altered by someone other than the prescriber or
                                                                pharmacist with prescriber approval to increase quantity or number of
Forging/Altering
                             27                                 refills.
Documents
                                                        •       Altered prescription, electronic claim records, medical document, etc., for
                                                                greater payment.

Inappropriate                                           •       Beneficiary was dead at the time of enrollment.
Enrollment/                  26                         •       Beneficiary enrolled under multiple plans.
Disenrollment                                           •       Involuntary termination of enrollee for nonpayment of premium.

Engaging in
                                                        •       Possible controlled substance abuse.
Potential Drug               22
                                                        •       Outlier nonnarcotic; wasteful and potentially abusive drug use.
Abuse

Billing the Wrong
                             8                          •       Wrong person charged for prescription.
Person

Inappropriate                                           •       Off-label prescribing of controlled substance.
                             7
Prescribing                                             •       Prescriber is on Office of Inspector General’s (OIG) Exclusion List.

                                                        •       Plan sponsor provided false or misleading information regarding the
                                                                number of its members who applied and qualified for the low-income
Misusing Low-                                                   subsidy in order to receive unwarranted low-income subsidy payments.
                             5
Income Subsidy                                          •       Beneficiary not reimbursed by plan following retroactive low income
                                                                subsidy determination.
                                                        •       Beneficiary not receiving the low-income benefit approved by CMS.




        OEI-03-07-00380          M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE   21
A   P   P E N D           I X            ~            B            





Types of Potential Fraud and Abuse Identified by Stand-Alone Drug Plan Sponsors, First 6 Months of 2007 (continued)


Type of Fraud             Number of 

and Abuse
                Incidents                                                                               Examples
Theft of                                                  •      In context of e-prescribing, includes theft of provider's authentication,
Prescriber’s                  5                                  i.e., login, information, including Drug Enforcement Administration
Prescription Pad                                                 number.

                                                          •	     Selected/denied beneficiaries based on illness profile or other
Adverse Selecting             4
                                                                 discriminating factors.

                                                          •	     Prescriber was offered or paid, solicited, or received unlawful
                                                                 remuneration to induce or reward the prescriber to write prescriptions
Illegal                                                          for drugs.
Remuneration,                 4                           •      PBM received unlawful remuneration in order to steer a beneficiary
Kickbacks, Bribes                                                toward a certain plan or drug.
                                                          •	     Inappropriate discounts, support services, educational grants, and
                                                                 research funding.

                                                          •      Any manipulation/miscalculation of beneficiary's TrOOP to keep
Inappropriate                                                    beneficiary in the coverage gap.
Manipulation of                                           •	     Plan sponsor did not correctly calculate amount beneficiary spent on
                              4
True Out-of-Pocket                                               prescription out of pocket.
Costs (TrOOP)                                             •	     Beneficiary manipulated TrOOP to push through the coverage gap to
                                                                 reach catastrophic coverage before being eligible.

                                                          •	     Plan sponsor, PBM, or PBM's pharmacy and therapeutics committees
                                                                 made decisions in which costs took priority over criteria such as clinical
                                                                 efficacy and appropriateness of formulary drugs.
Inappropriate Drug
                                                          •	     Inappropriate formulary support activities such as inappropriate
Formulary                     3
                                                                 payments to PBMs, and formulary placement payments in order to have
Decisions
                                                                 manufacturer's products included on a plan's formulary.
                                                          •	     Bait and switch, i.e., frequent formulary changes to induce beneficiaries
                                                                 to sign up for specific drugs that are later removed.

                                                          •	     Beneficiary attempted to game her/his drug coverage by obtaining and
                                                                 storing large quantities of drugs and then disenrolling, thus avoiding
Stockpiling                   3
                                                                 out-of-pocket costs, to protect against periods of noncoverage, or to sell
                                                                 drugs on black market.


                                                          •	     Manufacturer provided free samples to physicians expecting those
                                                                 physicians to bill Federal health care programs for the samples.
Inappropriate Sales
                                                          •	     Illegal promotion of off-label drug usage through marketing, financial
Technique by                  2
                                                                 incentives, or other promotion campaigns.
Manufacturer
                                                          •	     Inappropriate marketing or promotion of drugs/products (sales,
                                                                 marketing, discounting) by manufacturer.

Prescribing Outside
                              2                           •	     Providers wrote prescriptions outside of their scope of practice.
Scope of Practice




        OEI-03-07-00380           M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE   22
 A    P      P E N D           I X            ~            B            





Types of Fraud and Abuse Identified by Stand-Alone Drug Plan Sponsors, First 6 Months of 2007 (continued)


Type of Fraud                  Number of
and Abuse                      Incidents                                                                               Examples

                                                               •      Providers wrote prescriptions for drugs that were not medically
                                                                      necessary, often in mass quantities, and often for patients that were not
Mass Prescribing                   2                                  theirs. These prescriptions were often written for controlled drugs for
                                                                      sale on the black market and might include improper payments to the
                                                                      provider. This practice is sometimes called a prescription mill.


Hiding/Siphoning                                               •      Arrangements by providers with pharmacies, PBMs, etc. to hide/siphon
                                   1
Illegal Profits                                                       illegal profits.

Seeking Early
                                   1                           •      Beneficiary sought early refills.
Refills
                                          1
     Total                      10,577

Source of numeric data: OIG analysis of plan sponsor responses.

1 The number 10,577 is higher than the 9,774 potential fraud and abuse incidents that plan sponsors reported identifying from internal efforts and 


complaints from external sources. One possible explanation for the higher number is that more than one type of fraud and abuse was identified 

per incident.





             OEI-03-07-00380           M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE   23
Δ      A P P E N D I X ~ C


     Agency Comments




OEI-03-07-00380   M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE   24
A   P   P E N D       I X             ~           C




    OEI-03-07-00380   M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE   25
A   P   P E N D       I X             ~           C




    OEI-03-07-00380   M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE   26
Δ   A C K N O W L E D G M E N T S



                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and Linda M. Ragone, Deputy Regional Inspector
                  General.

                  Isabelle Buonocore served as the team leader for this study. Other
                  principal Office of Evaluation and Inspections staff from the
                  Philadelphia regional office who contributed to the report include
                  Conswelia McCourt; central office staff who contributed include Linda
                  Abbott and Sandy Khoury.




OEI-03-07-00380   M E D I C A R E D R U G P L A N S P O N S O R S ’ I D E N T I F I C AT I O N   OF   POTENTIAL FRAUD   AND   ABUSE   27
